CREDIT CARD ACCOUNT AGREEMENT AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR CREDIT CARD ACCOUNT AGREEMENT AND IT INCLUDES NECESSARY FEDERAL TRUTH-IN-LENDING DISCLOSURE STATEMENTS, VISA
CLASSIC, VISA CLASSIC SECURED, AND VISA PLATINUM AGREEMENTS, AND ANY SPECIAL INSTRUCTIONS REGARDING THE USE OF YOUR VISA CLASSIC,
VISA CLASSIC SECURED, AND VISA PLATINUM CREDIT CARDS, AND/OR ANY OTHER ACCOUNT ACCESS DEVICE. PLEASE BE CERTAIN TO READ THIS
AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.
DEFINITIONS. In this Agreement, the reference to "We," "Us," "Our" and "Credit Union" mean CAPITAL COMMUNICATIONS FEDERAL CREDIT UNION. The words "You"
and "Your" mean each person accepting this Agreement or who uses the VISA Classic, VISA Classic Secured or VISA Platinum Credit Card. If this is a joint Account, read
singular pronouns in the plural. The words "Card" and "Credit Card" mean any VISA Classic, VISA Classic Secured or VISA Platinum Credit Card issued to You by Us and
any duplicates or renewals. The word "Account" means the VISA Classic, VISA Classic Secured or VISA Platinum Credit Card established for You under this Agreement.
"Convenience Checks" mean the special Account access devices that We may provide for Your use from time to time.
PROMISE TO PAY. You understand that the following terms and conditions
constitute Our Agreement with You. Your Account may be accessible through a
variety of means which could include vouchers, checks, charge slips, Convenience
Checks, Credit Cards and the like. Regardless of the access means, You promise
to pay Us all amounts charged to Your Account by You or by any user who has
access to Your Account, with actual, apparent or implied authority for use of Your
Account, including Finance Charges and other fees or charges described herein.
USE OF YOUR CARD. You may use Your Card to buy goods and services in any
place that it is honored and to get cash advances at participating financial
institutions. You agree not to use Your Card for illegal transactions including, but
not limited to, advances made for the purpose of gambling and/or wagering where
such practices are in violation of applicable state and/or federal law.
SECURITY. Collateral (other than household goods or any dwelling) given as
security under this Agreement or for any other loan You may have with Us will
secure all amounts You owe Us now and in the future if that status is reflected
in the "Truth-in-Lending Disclosure" in any particular Agreement evidencing
such debt.
CONSENSUAL LIEN ON SHARES. You grant and consent to a lien on Your
shares with Us (except for IRA and Keogh accounts) and any dividends due
or to become due to You from Us to the extent You owe on any unpaid Credit
Card balance.
LINE OF CREDIT LIMITS. You will be notified of each specific Credit Limit for
each Credit Card for which You are approved. Unless You are in default, any
Credit Limits established for You will generally be self-replenishing as You
make payments.
You will keep Your unpaid balance within Your Credit Limit set by Us, and You will
pay any amount over Your Credit Limit on Our demand whether or not We authorize
the advances which caused You to exceed Your Credit Limit. Even if Your unpaid
balance is less than Your Credit Limit, You will have no credit available during any
time that any aspect of Your Account is in default.
JOINT ACCOUNTS. Each Borrower will be responsible, jointly and severally, for
the repayment of any amounts owed. If any Account access device, such as a
Personal Identification Number (PIN) is requested and approved, You understand
that any such Account access device(s) will be mailed only to the primary Borrower
at the address that We have on file for You. We may refuse to follow any instructions
which run counter to this provision.
ACCOUNT RESTRICTIONS. In order to receive and maintain a VISA Classic
Secured Credit Card, You agree to give Us a specific pledge of shares which will
equal Your Credit Limit. In the event that You default on Your VISA Classic Secured
Credit Card, We may apply these shares toward the repayment of any amount owed
on such Credit Card. You may cancel Your VISA Classic Secured Credit Card at
any time by paying any amounts owed on that Credit Card. To be certain that Your
entire balance and all advances on Your Account are paid, any shares pledged may
not be available to You for 30 days after You have cancelled and any outstanding
balance is paid in full.

Copyright Oak Tree Business Systems, Inc., 2014 - 2018. All Rights Reserved.

MINIMUM MONTHLY PAYMENTS (PAYMENT SCHEDULE). Though You need
only pay the Minimum Monthly Payments, You understand that You have the right
to repay at any time without penalty. You also understand that You will only be
charged periodic Finance Charges to the date You repay Your entire balance. You
may make larger payments without penalty. Any partial payment or prepayment will
not delay Your next scheduled payment. All payments to Us must be in lawful
money of the United States. As permitted by law, We may apply payments at Our
discretion. Any unpaid portion of the Finance Charge will be paid by subsequent
payments and will not be added to Your principal balance. You understand that any
delay in the repayment of Your unpaid balance will increase Your periodic Finance
Charges and any acceleration in the repayment of Your unpaid balance will
decrease Your periodic Finance Charges.
VISA Classic, VISA Classic Secured and VISA Platinum Minimum Payments will be
an amount equal to 2.00% of Your new unpaid VISA Classic, VISA Classic Secured
or VISA Platinum balance at the end of each billing cycle, subject to the lesser of
$25.00 or Your balance, plus any portion of the Minimum Payments shown on prior
statement(s) which remains unpaid.
You may, by separate agreement, authorize Us to charge Your payment directly to
Your share or share draft account.
FINANCE CHARGES. In the case of any transactions under Your Account, the
balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions). To get the
average daily balance, We take the beginning balance each day, add any new
purchases, balance transfers, cash advances, debit adjustments or other charges
and subtract any payments, credits and unpaid Finance Charges. This gives Us the
daily balance. Then, We add up all the daily balances for the billing cycle and divide
them by the number of days in the billing cycle. The Finance Charge for a billing
cycle is computed by multiplying the average daily balance subject to a Finance
Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the
entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the date
they are posted to Your Account, will be subject to a Finance Charge. Balance
transfers and cash advances are always subject to a Finance Charge from the later
of the date they are posted to Your Account or from the first day of the billing cycle
in which the cash advance is posted to Your Account.
For the current Monthly Periodic Rate (and the corresponding Annual
Percentage Rate) for Your Account, refer to the separate page titled
"Additional Disclosure - Federal Truth-In-Lending Act" which has been
provided in conjunction with Your Card.
LATE CHARGE. If Your payment is 10 or more days late, You will be charged the
lesser of: (a) the amount of the minimum payment due; or (b) $25.00.
RETURNED PAYMENT FEE. You will be charged a fee for any check (or other
negotiable instrument used for payment) which is returned unpaid. The amount of
the fee will equal the lesser of: (a) $10.00; or (b) the required minimum payment
amount for the returned payment.

Page 1 of 3

OTBS 016CC FRB_Web CAPC (1/18)
Rev. (1/18)

OTHER FEES AND CHARGES. You will be charged the following fees associated
with the use of Your Card: (a) $5.00 for each replacement Card You request; (b)
$2.00 for each statement copy You request; and (c) each time You request that We
expedite the delivery of a Card or PIN, We will charge You a fee, which amount will
be determined at Our sole discretion (ranging from a minimum $25.00 up to and
including a maximum of $45.00).
PERIODIC STATEMENTS. On a regular basis, You will receive a statement
showing all transactions on Your Account including amounts paid and borrowed
since Your last statement. We will provide You a statement each month in which
there is a debit or credit balance or when a Finance Charge is imposed. We need
not send You a statement if We feel Your Account is uncollectible or if We have
started collection proceedings against You because You defaulted. EACH
STATEMENT IS DEEMED TO BE A CORRECT STATEMENT OF ACCOUNT
UNLESS YOU ESTABLISH A BILLING ERROR PURSUANT TO THE FEDERAL
TRUTH-IN-LENDING ACT.
OUR RESPONSIBILITIES TO HONOR CONVENIENCE CHECKS. We are under
no obligation to honor Your Convenience Checks if: (1) by paying a Convenience
Check, You would exceed Your Credit Limit; (2) Your Cards or Convenience Checks
have been reported lost or stolen; (3) Your Account has been cancelled or has
expired. If a postdated Convenience Check is paid and, as a result, any other
Convenience Check is returned unpaid, We are not responsible for any resulting
loss or liability.
DEFAULT. You will be in default if: (a) You do not make any payment or perform
any obligation under this Agreement, or any other agreement that You may have
with Us; or (b) You should die, become involved in any insolvency, receivership or
custodial proceeding brought by or against You; or (c) You have made a false or
misleading statement in Your credit application and/or in Your representations to
Us while You owe money on Your Account; or (d) A judgment or tax lien should be
filed against You or any attachment or garnishment should be issued against any
of Your property or rights, specifically including anyone starting an action or
proceeding to seize any of Your funds on deposit with Us; and/or (e) We should, in
good faith, believe Your ability to repay Your indebtedness hereunder is or soon will
be impaired, time being of the very essence.
Upon any occurrence of default, We may, to the extent permitted by law, cancel
Your rights under this Agreement, require the return of all access devices and
declare the entire balance of Your Account immediately due and payable, without
prior notice or demand. If Your entire Account balance is not then paid
immediately upon default, and to the extent permitted by law, the Credit Union
may take possession of the Collateral and assert the defense of a superior right
of possession as the holder of a security interest to any offense of alleged
wrongful taking and conversion.
COLLECTION COSTS. In the event collection efforts are required to obtain
payment on this Account, to the extent permitted by law, You agree to pay all court
costs, private process server fees, investigation fees or other costs incurred in
collection and reasonable attorneys’ fees incurred in the course of collecting any
amounts owed under this Agreement or in the recovery of any Collateral.
ENFORCEMENT. We do not lose Our rights under this or any related agreement if
We delay enforcing them. We can accept late payments, partial payments or any
other payments, even if they are marked "paid in full" without losing any of Our rights
under this Agreement. If any provision of this or any related agreement is
determined to be unenforceable or invalid, all other provisions remain in full force
and effect.
NOTIFICATION OF ADDRESS CHANGE. You will notify Us promptly if You move
or otherwise have a change of address.
CHANGE IN TERMS. We may change the terms of this Agreement by mailing or
delivering to You written notice of the changes as prescribed by the Federal TruthIn-Lending Act. To the extent permitted by law, the right to change the terms of this
Agreement includes, but is not limited to, the right to change the periodic rate
applicable to Your unpaid balance and/or future advances.
CREDIT INSURANCE. Credit insurance is not required for any extension of
credit under this Agreement. However, You may purchase any credit insurance
available through Us and have the premiums added to Your outstanding
balance. If You elect to do so, You will be given the necessary disclosures and
documents separately.
INTEGRATED DOCUMENTS. Any separate sheet of paper labeled "Additional
Disclosure - Federal Truth-In-Lending Act," which is delivered together with this
Agreement or at a later date becomes an integrated part of this Agreement
and Disclosure.

Copyright Oak Tree Business Systems, Inc., 2014 - 2018. All Rights Reserved.

CONSENT TO AGREEMENT. You acknowledge receipt of a copy of this
Agreement. By signing the application; or by using Your Account or any Account
access device; or by authorizing another to use Your Account, You agree to and
accept its terms.
UPDATING AND DISCLOSING FINANCIAL INFORMATION. You will provide
facts to update information contained in Your original Account application or
other financial information related to You, at Our request. You also agree that
We may, from time to time, as We deem necessary, make inquiries pertai ning
to Your employment, credit standing and financial responsibility in accordance
with applicable laws and regulations. You further agree that We may give
information about the status and payment history of Your Account to consumer
credit reporting agencies, a prospective employer or insurer, or a state or
federal licensing agency having any apparent legitimate business need for
such information.
TERMINATION. Either You or We may cancel Your Account at any time, whether
or not You are in default. You will, in any case, remain liable to pay any unpaid
balances according to the terms of Your Account.
OWNERSHIP. Your Card remains Our property and may be cancelled by Us at any
time without notice. You agree to surrender Your Card and to discontinue its use
immediately upon Our request.
ISSUANCE OF A PERSONAL IDENTIFICATION NUMBER. We will issue, upon
Your request, a Personal Identification Number (PIN) for use with participating
Automated Teller Machines (ATMs). This PIN is confidential and should not be
disclosed to anyone. You may use Your PIN to access Your Account and all sums
advanced will be added to Your Account balance. In the event a use of Your PIN
constitutes an Electronic Fund Transfer, the terms and conditions of Your Electronic
Fund Transfer Agreement may also affect Your rights.
EFFECT OF AGREEMENT. Even though the sales, cash advance, credit or
other slips You may sign or receive when using Your Card contain terms, this
Agreement is the contract which solely applies to all transactions invol ving
the Card.
UNAUTHORIZED USE. You may be liable for the unauthorized use of Your Card.
You will not be liable for the unauthorized use that occurs after You notify Us of the
loss, theft, or possible unauthorized use by calling Us at (844) 228-8853. You may
also notify Us of the loss, theft, or possible unauthorized use of Your Card by writing
to Us at CAP COM Federal Credit Union, 4 Winners Circle, Albany, NY 12205. In
any case, Your liability will not exceed $50.00.
REFUSAL TO HONOR CARDS OR CONVENIENCE CHECKS. We are not
liable for the refusal or inability of merchants, financial institutions and others
to accept the Cards or Convenience Checks, or electronic terminals to honor
the Cards or complete a Card withdrawal, or for their retention of the Cards or
Convenience Checks.
FOREIGN TRANSACTIONS. For transactions initiated in foreign countries and
foreign currencies, the exchange rate between the transaction currency and the
billing currency (U.S. Dollars) will be: (a) a rate selected by VISA from the range
of rates available in wholesale currency markets for the applicable central
processing date, which rate may vary from the rate VISA itself receives; or (b) the
government-mandated rate in effect for the applicable central processing date.
For transactions that are initiated in a foreign currency, You will be charged 1.00%
of the final settlement amount. For transactions occurring in foreign countries and
initiated in U.S. Dollars, You will be charged 1.00% of the final settlement amount.
TRANSACTION SLIPS. Your monthly statement will identify that merchant,
electronic terminal or financial institution at which transactions were made, but
sales, cash advances, credit or other slips cannot be returned with the statement.
LOST CARDS OR CONVENIENCE CHECKS. To report lost or stolen Credit Cards
or Convenience Checks, You will immediately call Us at (844) 228-8853, or write to
Us at CAP COM Federal Credit Union, 4 Winners Circle, Albany, NY 12205.
CREDITS. If a merchant who honors Your Card gives You credit for returns or
adjustments, they will do so by sending Us a slip which will be posted to Your
Account. If Your credits and payments exceed what You owe Us, We will hold and
apply this credit against future purchases and cash advances, or if it is $1.00 or
more refund it on Your written request or automatically deposit it to Your Share
Account after six months.
GOVERNING LAW. This Agreement is controlled and governed by the laws of the
State of New York except to the extent that such laws are inconsistent with
controlling federal law.

Page 2 of 3

OTBS 016CC FRB_Web CAPC (1/18)
Rev. (1/18)

Your Billing Rights: Keep this Document for Future Use

After We finish Our investigation, one of two things will happen:

This notice tells You about Your rights and Our responsibilities under the Fair
Credit Billing Act.
What To Do If You Find A Mistake On Your Statement
If You think there is an error on Your statement, write to Us at Our address shown
in this Agreement. In Your letter, give Us the following information:
• Account information: Your name and Account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If You think there is an error on Your bill, describe what
You believe is wrong and why You believe it is a mistake.
You must contact Us:
• Within 60 days after the error appeared on Your statement.
• At least three business days before an automated payment is scheduled, if You
want to stop payment on the amount You think is wrong.
You must notify Us of any potential errors in writing. You may call Us, but if You do
We are not required to investigate any potential errors and You may have to pay
the amount in question.

• If We made a mistake: You will not have to pay the amount in question or any
interest or other fees related to that amount.
• If We do not believe there was a mistake: You will have to pay the amount
in question, along with applicable interest and fees. We will send You a
statement of the amount You owe and the date payment is due. We
may then report You as delinquent if You do not pay the amount We think
You owe.
If You receive Our explanation but still believe Your bill is wrong, You must
write to Us within 10 days telling Us that You still refuse to pay. If You do so,
We cannot report You as delinquent without also reporting that You are
questioning Your bill. We must tell You the name of anyone to whom We
reported You as delinquent, and We must let those organizations know when
the matter has been settled between Us. If We do not follow all of the rules
above, You do not have to pay the first $50.00 of the amount You question
even if Your bill is correct.
Your Rights If You Are Dissatisfied With Your Credit Card Purchases
If You are dissatisfied with the goods or services that You have purchased with Your
Credit Card, and You have tried in good faith to correct the problem with the
merchant, You may have the right not to pay the remaining amount due on the
purchase. To use this right, all of the following must be true:

What Will Happen After We Receive Your Letter
When We receive Your letter, We must do two things:
1) Within 30 days of receiving Your letter, We must tell You that We received Your
letter. We will also tell You if We have already corrected the error.
2) Within 90 days of receiving Your letter, We must either correct the error or
explain to You why We believe the bill is correct.
While We investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report You as delinquent on
that amount.
• The charge in question may remain on Your statement, and We may continue
to charge You interest on that amount.
• While You do not have to pay the amount in question, You are responsible for
the remainder of Your balance.
• We can apply any unpaid amount against Your Credit Limit.

Copyright Oak Tree Business Systems, Inc., 2014 - 2018. All Rights Reserved.

1) The purchase must have been made in Your home state or within 100 miles of
Your current mailing address, and the purchase price must have been more
than $50.00. (Note: Neither of these are necessary if Your purchase was based
on an advertisement We mailed to You, or if We own the company that sold
You the goods or services.)
2) You must have used Your Credit Card for the purchase. Purchases made with
cash advances from an ATM or with a check that accesses Your Credit Card
account do not qualify.
3) You must not yet have fully paid for the purchase.
If all of the criteria above are met and You are still dissatisfied with the purchase,
contact Us in writing at Our address shown in this Agreement.
While We investigate, the same rules apply to the disputed amount as discussed
above. After We finish Our investigation, We will tell You Our decision. At that
point, if We think You owe an amount and You do not pay, We may report You
as delinquent.

Page 3 of 3

OTBS 016CC FRB_Web CAPC (1/18)
Rev. (1/18)

PRICING INFORMATION ADDENDUM – CREDIT CARD ACCOUNT
AGREEMENT AND FEDERAL DISCLOSURE STATEMENT
THIS IS YOUR ADDENDUM THAT CONTAINS PRICING INFORMATION FOR THE VISA CLASSIC, VISA CLASSIC SECURED, AND VISA PLATINUM CREDIT CARD.
PLEASE BE SURE TO READ THIS AGREEMENT CAREFULLY AND NOTIFY US AT ONCE IF ANY PARTS ARE UNCLEAR.

Interest Rate and Interest Charges
Annual Percentage Rate (APR)
For Purchases

VISA Classic:

13.90%

VISA Classic Secured:
Annual Percentage Rate (APR)
For Balance Transfers

VISA Platinum:

9.90%

13.90%

VISA Classic: 13.90%

VISA Platinum: 9.90%

VISA Classic Secured: 13.90%
Annual Percentage Rate (APR)
For Cash Advances

VISA Classic: 13.90%

VISA Platinum: 9.90%

VISA Classic Secured: 13.90%
Paying Interest

We will not charge You interest on purchases if You pay Your entire balance owed each
month within 25 days of Your statement closing date. We will begin charging interest on
cash advances and balance transfers on the transaction date.

Fees
Transaction Fees
 Foreign Transaction

1.00% of each foreign currency transaction in U.S. Dollars.
1.00% of each U.S. Dollar transaction that occurs in a foreign country.

Penalty Fees
 Late Payment
 Returned Payment

Up to $25.00
Up to $10.00

How We Will Calculate Your Balance: We use a method called "average daily balance (including new purchases).” See
Your Account Agreement for details.
Billing Rights: Information on Your rights to dispute transactions and how to exercise those rights is provided in Your Account
Agreement.
FINANCE CHARGES. In the case of any transactions under Your Account, the balances subject to the periodic Finance Charge are the average daily transactions
balances outstanding during the month (including new transactions). To get the average daily balance, We take the beginning balance each day, add any new purchases,
balance transfers, cash advances, debit adjustments or other charges and subtract any payments, credits and unpaid Finance Charges. This gives Us the daily balance.
Then, We add up all the daily balances for the billing cycle and divide them by the number of days in the billing cycle. The Finance Charge for a billing cycle is computed
by multiplying the average daily balance subject to a Finance Charge by the Monthly Periodic Rate.
You can avoid Finance Charges on purchases by paying the full amount of the entire balance owed each month within 25 days of Your statement closing date.
Otherwise, the new balance of purchases, and subsequent purchases from the date they are posted to Your Account, will be subject to a Finance Charge. Balance
transfers and cash advances are always subject to a Finance Charge from the later of the date they are posted to Your Account or from the first day of the billing cycle
in which the cash advance is posted to Your Account.
VISA Classic is subject to a Monthly Periodic Rate of 1.1583% (corresponding to an ANNUAL PERCENTAGE RATE of 13.90%).
VISA Classic Secured is subject to a Monthly Periodic Rate of 1.1583% (corresponding to an ANNUAL PERCENTAGE RATE of 13.90%).
VISA Platinum is subject to a Monthly Periodic Rate of 0.8250% (corresponding to an ANNUAL PERCENTAGE RATE of 9.90%).
Copyright Oak Tree Business Systems, Inc., 2014 - 2018. All Rights Reserved.

Page 1 of 1

OTBS 016ACC FRB_Web CAPC (1/18)
Rev. (1/18)

